                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

     Case Number: A-04040019                                                                      Page 1 of 1



             We received a concern1about the failure of the awardee institution to pay expenditures
             authorized under an NSF awarded interagency agreement.2 The PI on the agrkement (the subject)
             listed'himself as both the PI and the AOR.

             After reviewing the interagency agreement, we contacted the other agency's IG,] requesting
             assistance to pay the outstanding bills. The other agency's IG investigated the matter and, as a
             result of its investigation, the outstanding bills were paid and the subject received a reprimand for
             misuse of his government credit card and failure to follow proper procurement procedures.

11           Our review of the interagency agreement resulted in questions that we referred to audit.

             This case is closed and no further action will be taken.




               NSF Interagency Agreement             , entitled
                                                                                                         "   was an
              intera enc agreement with                 (the subject)

           Ad-               , as the PI and AOR.



I'  NSF OIG Form 2 (1 1/02)
                                                                                                                      I   I
